TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Appropriate Actions Were Taken to Maintain
                  Taxpayers’ Level of Service, but Access Is
                       Lower Than That in Prior Years



                                      September 14, 2006

                              Reference Number: 2006-40-162




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 14, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Appropriate Actions Were Taken to Maintain
                              Taxpayers’ Level of Service, but Access Is Lower Than That in Prior
                              Years (Audit # 200640011)

 This report presents the results of our review to evaluate the customer service toll-free telephone
 access during the 2006 Filing Season.1 This audit was conducted as part of the Treasury
 Inspector General for Tax Administration’s annual reviews of the performance of key customer
 service programs.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) planned and met its 2006 Filing Season toll-free
 performance measurement goals, providing taxpayers with effective access to its toll-free
 telephone system. We identified opportunities within the toll-free telephone scripts2 for the IRS
 to educate and inform callers, either when taxpayers cannot connect to the toll-free telephone
 assistance lines or while they are on hold, which should improve taxpayer service and
 satisfaction.

 Synopsis
 Each year, millions of taxpayers contact the IRS seeking assistance in understanding the tax law
 and meeting their tax obligations by calling the various Customer Account Services (CAS)


 1
   The filing season is the period from January through mid-April of each year when most individual income tax
 returns are filed.
 2
   Scripts are used during menu selection and with recorded messages.
                  Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                      Service, but Access Is Lower Than That In Prior Years



Toll-Free telephone assistance lines.3 During the 2006 Filing Season, the IRS made available
approximately 9,900 customer service representatives (assistors) to answer the toll-free
telephone lines at 25 call centers located throughout the United States and Puerto Rico and
provided taxpayers with effective access to its toll-free telephone system.
The IRS planned and met its 2006 Filing Season toll-free performance measurement goals:
81.8 percent Level of Service, 295 seconds Average Speed of
Answer, and 15 million CAS Assistor Calls Answered. The
Level of Service is the primary measure of providing taxpayers            The IRS achieved
with access to a live assistor. Average Speed of Answer is the        98 percent of its planned
average number of seconds taxpayers waited in the queue (on            assistor services   and
                                                                          110 percent of its
hold) before receiving services. Additionally, from January              planned automated
through March 2006, 94 percent of taxpayers that called the IRS               services.
toll-free telephone system and completed customer satisfaction
surveys regarding their experience gave the IRS a rating of
4 (mostly satisfied) or 5 (completely satisfied) on a 5-point scale.4
While the Level of Service for the 2006 Filing Season did not decline from that provided in the
2005 Filing Season and customer satisfaction surveys continue to be positive, the Level of
Service is still below that provided during the 2004 Filing Season. In an attempt to reduce
taxpayers’ time waiting to speak to assistors, the IRS blocked more taxpayer calls in the
2006 Filing Season than in the 2005 Filing Season.5 More taxpayers disconnected prior to
receiving assistance. Calls answered per Full-Time Equivalent (FTE)6 declined in the
2006 Filing Season. However, overall, callers waited less time to speak with assistors and
abandoned fewer calls while on hold.
The CAS function’s planning assumptions called for reducing the daily toll-free telephone
operating hours from 15 hours to 12 hours, thus requiring fewer assistors to answer toll-free
telephone calls. However, Congress enacted legislation7 restricting the IRS from reducing
taxpayer services until the Treasury Inspector General for Tax Administration had completed a
study of the proposed changes. As a result, the IRS did not reduce toll-free telephone hours of

3
  These calls were made to the suite of 16 telephone lines the IRS refers to as “CAS Toll-Free.” Unless otherwise
specified, all references made in this report to the toll-free telephone system performance data are for CAS Toll-Free
telephone assistance lines through April 22, 2006, and comparable dates in prior years.
4
  The only taxpayers surveyed were a sample of those that completed their interactions with the IRS.
5
  A blocked call is one that cannot be connected immediately because either no circuit is available at the time the
call arrives (i.e., the taxpayer receives a busy signal) or the system is programmed to block calls from entering the
queue when the queue backs beyond a defined threshold (i.e., the taxpayer receives a recorded announcement to call
back at a later time).
6
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year.
7
  The Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, Pub. L. No. 109-115, 119 Stat. 2396 (2006).
                                                                                                                    2
               Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                   Service, but Access Is Lower Than That In Prior Years



operation in Fiscal Year 2006 and stated that being unable to reduce the toll-free telephone hours
of operation while trying to maintain the same Level of Service during the 2006 Filing Season
was not without costs. When the reduced operating hours were not implemented, it was too late
for the CAS function to hire and train seasonal assistors. Therefore, there were fewer assistors
available to answer the telephones.
Additionally, a review of telephone scripts used for 6 of 16 CAS Toll-Free telephone product
lines showed the IRS has opportunities to educate and inform callers, either when taxpayers
cannot connect to the toll-free telephone assistance lines or while they are on hold. For example,
when the IRS is experiencing a high call volume or the taxpayer is calling outside the toll-free
telephone operating hours, the IRS could educate the taxpayers or inform them of its self-help
services. When a taxpayer is on hold, the IRS could provide information on new tax laws or
upcoming filing deadlines or dates.

Recommendation
We recommended the Commissioner, Wage and Investment Division, review all toll-free
telephone English and Spanish Call Flow Scripts for opportunities to educate the taxpayers or to
inform them of self-help services on IRS.gov.

Response
IRS management agreed with our recommendation, stating that reviewing English and Spanish
telephone call flow scripts may identify opportunities to educate taxpayers or inform them of
self-help services. The IRS currently reviews the call flow scripts on a regular basis and agreed
that there is value in looking for additional instances in which such announcements might be
appropriate. It will also look closely at the costs of adding and maintaining such messages to
determine the feasibility of doing so. Management’s complete response to the draft report is
included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                    3
                     Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                         Service, but Access Is Lower Than That in Prior Years




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Internal Revenue Service Generally Planned Well for the
          2006 Filing Season, but the Level of Service Was Below That Provided
          During the 2004 Filing Season .....................................................................Page 5
          Toll-Free Telephone Scripts Could Be Used to Inform
          and Educate Taxpayers .................................................................................Page 12
                    Recommendation 1:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Customer Account Services Toll-Free Telephone
          Services Individual Product Lines for the 2005 and 2006 Filing
          Seasons..........................................................................................................Page 19
          Appendix V – Joint Operations Center.........................................................Page 21
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
        Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
            Service, but Access Is Lower Than That in Prior Years




                       Abbreviations

CAS                 Customer Account Services
FTE                 Full-Time Equivalent
IRS                 Internal Revenue Service
TIGTA               Treasury Inspector General for Tax Administration
                   Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                       Service, but Access Is Lower Than That in Prior Years




                                              Background

Each year, millions of taxpayers contact the Internal Revenue Service (IRS) seeking assistance in
understanding the tax law and meeting their tax obligations by calling the various toll-free
telephone assistance lines. Taxpayers called the IRS Customer Account Services (CAS)
Toll-Free telephone assistance lines approximately 51.7 million times1 during the
2006 Filing Season.2 Of these calls, 17.7 million were made to the toll-free telephone number,
1-800-829-1040, the telephone number taxpayers call to ask tax law or account-related questions.
In addition, over 8 million calls were made to the IRS automated TeleTax system that provides
recorded tax law and refund information. Figure 1 shows the number of calls made to the
CAS Toll-Free telephone assistance lines and the 14.6 million calls answered during the
2006 Filing Season.
               Figure 1: Calls Handled by the IRS in the 2006 Filing Season

                                                                                        16.0 million
                 10.5 million                                                           Received
                 Called After                                                           Automated
                                                                                        Service
                 Hours/                                               30.9%
                 Transfer
                 Out                              20.3%




                                                 20.5%                                 14.6 million Reached an
                                                                    28.2%              Assistor
                  10.6 million
                  Hung up or
                  Disconnected
                  Before Receiving Service




                Source: IRS Enterprise Telephone Data Warehouse.3




1
  These calls were made to the suite of 16 telephone lines the IRS refers to as “CAS Toll-Free.” Also, calls made to
the TeleTax system are included in these calls. Unless otherwise specified, all references made in this report to the
toll-free telephone system performance data are for CAS Toll-Free telephone assistance lines through
April 22, 2006, and comparable dates in prior years.
2
  The filing season is the period from January through mid-April of each year when most individual income tax
returns are filed. All references to the 2006 Filing Season made in this report, unless otherwise specified, are for the
period from January 1 to April 22, 2006.
3
  The Enterprise Telephone Data Warehouse is the official source for all data related to toll-free telephone measures
and indicators.
                                                                                                                 Page 1
                     Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                         Service, but Access Is Lower Than That in Prior Years



The CAS Toll-Free telephone assistance lines are further subdivided into categories called
“applications.” Each application is staffed with a group of customer service representatives
(assistors) that have received specialized training to assist taxpayers with specific tax issues.
Assistors answer taxpayer questions involving tax law and tax account-related conditions such as
refunds, balance-due billing activity, and changes to the amount of taxes owed. For example, if
an individual taxpayer calls to find out where to mail a tax return, the call would be routed to an
assistor who has been trained to handle IRS procedural issues for individual taxpayers. If a
business taxpayer calls to find out the taxes due on a business account, the call would be routed
to an assistor who handles balance-due questions for the business taxpayer.
During the 2006 Filing Season, the IRS made available approximately 9,900 assistors to answer
the toll-free telephone lines at 25 call centers4 located throughout the United States and
Puerto Rico and provided taxpayers with effective access to its toll-free telephone system. The
Director, CAS, Wage and Investment Division, manages tax law and account telephone calls
through the Joint Operations Center. Appendix V explains the role of the Joint Operations
Center and how telephone calls are routed to automated services or a live assistor. Appendix IV
shows the CAS Toll-Free Telephone Service Individual Product Lines for the 2005 and 2006
Filing Seasons. Figure 2 shows the number of calls handled during the 2006 Filing Season.




4
    Only nine call centers handle tax law questions.



                                                                                            Page 2
                  Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                      Service, but Access Is Lower Than That in Prior Years



              Figure 2: CAS Toll-Free Telephone Service Product Lines and
                Number of Calls Answered5 During the 2006 Filing Season

                                                      Business Master File
                           Small Business/            Customer Response           Remaining 9 CAS
                            Self-Employed                617,461 (4%)          Toll-Free Product Lines
                        Individual Master File                                       588,507 (4%)
                         Customer Response
                             811,387 (6%)


                   Refund Hotline                                               Individual Income
                   1,105,438 (8%)                                                 Tax Services
                                                                                 6,619,580 (45%)




                  Wage and Investment
                  Individual Master File
                   Customer Response
                     1,523,019 (10%)

                                           Refund Call Back        Business and
                                            1,644,829 (11%)          Specialty
                                                                    Tax Services
                                                                  1,715,396 (12%)

                  Source: IRS Enterprise Telephone Data Warehouse.6

The IRS had planned to reduce toll-free telephone hours of operation in
Fiscal Year 2006
As part of its strategy to reduce costs, the IRS had planned to reduce the toll-free telephone hours
of operation from 15 hours to 12 hours. Currently, taxpayers can call the toll-free telephone lines
and reach an assistor from 7 a.m. to 10 p.m. local time.7 The IRS planned to change the hours
taxpayers can reach an assistor to 8 a.m. to 8 p.m. local time. The IRS estimated that reducing
the hours and restricting a caller to local time zones could save approximately
410 Full-Time Equivalents (FTE)8 at a cost of approximately $18 million. The IRS had planned
to implement the new toll-free telephone operating hours in October 2005 and briefed the
National Treasury Employees Union about the reduction on June 7, 2005.




5
  Figure 2 does not include the Criminal Investigation Division Toll-Free telephone product line because this line
became an automated service in January 2006.
6
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes.
7
  Local time means callers are limited to calling within their local time zones.
8
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year.
                                                                                                             Page 3
                  Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                      Service, but Access Is Lower Than That in Prior Years



However, due to concerns raised by the National Treasury Employees Union and the
National Taxpayer Advocate over the proposed closing of several Taxpayer Assistance Centers9
nationwide, Congress enacted legislation on November 30, 2005,10 restricting the IRS from
reducing taxpayer services until the Treasury Inspector General for Tax Administration (TIGTA)
had completed a study of the proposed changes. Congress further defined a reduction of
taxpayer service to include limiting available hours of toll-free telephone taxpayer assistance. As
a result, the IRS did not reduce toll-free telephone hours of operation in Fiscal Year 2006.
This review was performed at the Joint Operations Center in Atlanta, Georgia, during the period
January through June 2006. The audit was performed in accordance with Government Auditing
Standards. The scope of this audit did not include an assessment of the quality of toll-free
telephone services. The performance data we evaluated were provided by IRS management
information systems. We did not verify the accuracy of these data. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




9
  Taxpayer Assistance Centers provide taxpayers face-to-face assistance with interpreting tax laws and regulations,
preparing certain individual tax returns, resolving inquiries on taxpayer accounts, accepting payments, and providing
various other services designed to minimize the burden on taxpayers in satisfying their tax obligations.
10
   The Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, Pub. L. No. 109-115, 119 Stat. 2396 (2006).
                                                                                                            Page 4
                     Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                         Service, but Access Is Lower Than That in Prior Years




                                         Results of Review

The Internal Revenue Service Generally Planned Well for the
2006 Filing Season, but the Level of Service Was Below That Provided
During the 2004 Filing Season
The IRS planned and met its 2006 Filing Season toll-free performance measurement goals–
81.8 percent Level of Service, 295 seconds Average Speed of Answer, and 15 million CAS
Assistor Calls Answered–and provided taxpayers with effective access to its toll-free telephone
system. The Level of Service is the IRS’ primary measure of providing taxpayers with access to
a live assistor. Average Speed of Answer is the average number of seconds taxpayers waited in
the queue (on hold) before receiving services. Figure 3 shows the actual performance measures
for the last four filing seasons.
                       Figure 3: Comparison of the Performance Measures
                                 for the 2003–2006 Filing Seasons

              CAS Toll-Free                    2003            2004            2005            2006

              Level of Service                83.1%           85.0%           81.8%           82.0%

              Average Speed of
                                                175             184             255             213
              Answer (seconds)

              CAS Assistor Calls
                                                15.8            16.8            15.6            14.6
              Answered (millions)
            Source: IRS Enterprise Telephone Data Warehouse.

In addition, from January through March 2006, 94 percent of the taxpayers that called the IRS
toll-free telephone system and completed customer satisfaction surveys regarding their
experience gave the IRS a rating of 4 (mostly satisfied) or 5 (completely satisfied) on a 5-point
scale.11 The overall satisfaction rating was 4.7. Only 2 percent of the taxpayers were dissatisfied
(i.e., gave a rating of 1 or 2).




11
     The only taxpayers surveyed were a sample of those that completed their interactions with the IRS.
                                                                                                          Page 5
                     Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                         Service, but Access Is Lower Than That in Prior Years



The IRS planned for fewer taxpayer calls
In preparation for the 2006 Filing Season, the Joint Operations Center planned to answer
31.9 million taxpayer calls (including 16.9 million calls to automated lines). This represents a
9.9 percent decrease from the 2005 Filing Season, 82.9 percent of which is a planned reduction
in automated services as more customers use the Internet Refund Fact of Filing Service.12 This
estimate was based on historical data and workplan assumptions. Actual performance showed
assistors answered 2 percent fewer calls than planned but used 99 percent of the planned
resources.
The IRS planned to provide approximately .5 million fewer toll-free telephone assistor services
and 2.9 million fewer automated services to taxpayers. The IRS defines a service as an issue or
multiple issues handled by a single assistor. In general, one service equates to one or more
taxpayer questions answered by one assistor. For example, one call might result in the IRS
counting three services provided for one taxpayer: (1) asking a tax law question and requesting a
form (two questions equals one service by one tax law assistor), (2) asking the status of an
Employer Identification Number (one service by a business assistor), and (3) asking the status of
the customer’s individual account (one service by an individual account assistor).
For the 2006 Filing Season, the IRS achieved 98 percent of its planned assistor services and
110 percent of its planned automated services. Toll-free telephone automation and assistor
services provided for the last two filing seasons have decreased steadily. There has also been a
decline in tax law services due to more individuals using tax preparation software that
thoroughly explains the preparation of their tax returns. Figure 4 shows the number of CAS
Toll-Free telephone services provided for the last four filing seasons.




12
     This application allows taxpayers to check the status of their tax refunds on IRS.gov.




                                                                                              Page 6
                   Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                       Service, but Access Is Lower Than That in Prior Years



                Figure 4: Comparison of CAS Toll-Free Telephone Services
                  Provided for the 2003–2006 Filing Seasons (in millions)13

 CAS Toll-Free                                    2003                2004               2005               2006

 Automated Services Provided14                     26.8               26.5                19.8              18.6

 Assistor Services Provided                        18.5               19.6                18.3              17.4

 Totals                                            45.3               46.1                38.1              36.0
Source: IRS Enterprise Telephone Data Warehouse.

The decline in services made to the CAS Toll-Free telephone assistance lines is in part attributed
to the continued increase in taxpayers’ use of the Internet Refund Fact of Filing application,
which allows taxpayers to check the status of their tax refunds. During the 2006 Filing Season,
taxpayers made approximately 25.4 million attempts to access the Internet Refund Fact of Filing
application. This represented a 16.5 percent increase from the 2005 Filing Season (from
21.8 million to 25.4 million).

The Level of Service was below that provided during the 2004 Filing Season
Each year, the IRS allocates FTEs to the Accounts Management function for operation of
the toll-free telephone program. Based on these budgeted resources, the CAS function
can plan for the number of taxpayer calls that will be answered by assistors and the
numbers of services taxpayers may need during the calls. The CAS function has about
400 fewer FTEs for toll-free telephone operations than it had in Fiscal Year 2005. These
data are used to set the Level of Service goal for the filing season.
IRS officials explained that there are various components of the Level of Service. To
ensure the IRS provides taxpayers with the planned Level of Service, the IRS attempts to
balance these components to reach its Level of Service goals. For example, it controls
the number of taxpayer calls allowed into the toll-free telephone system to help improve
the taxpayers’ experiences once they connect to the system. In an attempt to reduce
taxpayers’ time spent waiting to speak to assistors, the IRS blocked more taxpayer calls
in the 2006 Filing Season than in the 2005 Filing Season. A blocked call is one that
cannot be connected immediately because either no circuit is available at the time the call
arrives, (i.e., the taxpayer receives a busy signal) or the system is programmed to block
calls from entering the queue when the queue backs up beyond a defined threshold

13
   Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals for previous filing
seasons in Figure 4 may not equal the totals presented in previous TIGTA reports.
14
   The Automated Services Provided category does not include the number of services provided by the Internet
Refund Fact of Filing application.
                                                                                                               Page 7
                   Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                       Service, but Access Is Lower Than That in Prior Years



(i.e., the taxpayer receives a recorded announcement to call back at a later time). The
IRS refers to the latter type of blocked call as a courtesy disconnect. Figure 5 shows a
comparison of various components (workload indicators) the IRS uses to manage the
Level of Service.

           Figure 5: Comparison of CAS Toll-Free Telephone Level of Service
                     Components for the 2003–2006 Filing Seasons15

      CAS Toll-Free                               2003              2004               2005             2006

      Blocked Calls (millions)                      .7                .5                 .9              1.3

      Primary Abandons
                                                   5.7               7.1                5.5              6.2
      (millions)16

      Assistor Calls Answered
                                                   5,037            5,454              5,434            5,054
      per Toll-Free FTE
     Source: IRS Enterprise Telephone Data Warehouse.

The IRS stated that being unable to reduce the toll-free telephone hours of operations while
trying to maintain the same Level of Service during the 2006 Filing Season was not without
costs. The CAS function’s planning assumptions called for reducing toll-free telephone
operating hours from 15 hours to 12 hours, thus requiring fewer assistors to answer toll-free
telephone calls. However, Congress enacted legislation on November 30, 2005, restricting the
IRS from reducing taxpayer services until the TIGTA had completed a study of the proposed
changes. Congress further defined a reduction of taxpayer service to include limiting the hours
of toll-free telephone taxpayer assistance on a daily, weekly, and monthly basis to those levels
available during October 2005.
          Funds made available by this or any other Act to the Internal Revenue Service shall be
          available for improved facilities and increased manpower to provide sufficient and
          effective 1-800 help line service for taxpayers. The Commissioner shall continue to make
          the improvement of the Internal Revenue Service 1-800 help line service a priority and
          allocate resources necessary to increase [tele]phone lines and staff to improve the
          Internal Revenue Service 1-800 help line service.
When the reduced operating hours were not implemented, it was too late for the CAS function to
hire and train seasonal assistors. Therefore, there were fewer assistors available to answer the
telephones.

15
   Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals for previous filing
seasons in Figure 5 may not equal the totals presented in previous TIGTA reports.
16
   The IRS refers to calls that disconnect before reaching the queue as primary abandons.
                                                                                                               Page 8
                   Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                       Service, but Access Is Lower Than That in Prior Years



More taxpayers calls were blocked during the 2006 Filing Season
Figure 6 shows the number of blocked calls for the last four filing seasons.
                       Figure 6: Comparison of Number of Blocked Calls
                               for the 2003–2006 Filing Seasons17

      CAS Toll-Free                             2003                2004              2005              2006

      Busy Signals                             244,982            150,027           296,736           215,150
      Courtesy Disconnects18                   429,943            354,892           624,051          1,121,571
      Selected Expanded Access19               56,732              9,650                0                 0

      Total Blocked Calls                      731,657            514,569           920,787          1,336,721
     Source: IRS Enterprise Telephone Data Warehouse.

Although blocked calls account for only 3 percent of the total call attempts for the
CAS Toll-Free telephone assistance lines, total blocked calls increased in the 2006 Filing Season
by 45.2 percent. This happened because the IRS made the business decision to increase the
volume of taxpayers receiving courtesy disconnects. This allows taxpayers that do connect to
wait less time to speak with an assistor, therefore decreasing the Average Speed of Answer.
More taxpayers abandoned (disconnected) their calls in the 2006 Filing Season
Primary abandons may occur when taxpayers (1) realize they input the wrong telephone number
and immediately disconnect, (2) disconnect before completing an automated routing script, or
(3) choose a menu option to use an automated service but disconnect before completing the
service. For the 2006 Filing Season, the IRS experienced approximately 700,000 (12.7 percent)
more primary abandons than in the 2005 Filing Season (see Figure 5).
The number of abandoned calls is directly related to the number of taxpayer calls attempted.
Thus, the IRS compares the number of calls attempted to the number of calls abandoned. This
percentage increased from 12.8 percent in the 2005 Filing Season to 14.2 percent in the
2006 Filing Season. Approximately 90 percent of the increase can be attributed to taxpayers
disconnecting when asked to provide their Social Security Numbers when inquiring about the
status of their refunds. Figure 7 shows the number of abandons and total attempts for the last
four filing seasons.

17
   Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals for previous filing
seasons in Figure 6 may not equal the totals presented in previous TIGTA reports.
18
   Courtesy disconnects were introduced in Fiscal Year 2003.
19
   The Selected Expanded Access is a system that allows a taxpayer to receive automated services in lieu of a busy
signal during periods of peak demand. It was discontinued in Fiscal Year 2005 because network prompting now
identifies upfront where to route the calls and sends them directly to assistors.
                                                                                                               Page 9
                   Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                       Service, but Access Is Lower Than That in Prior Years



                                Figure 7: Comparisons of Abandons
                                 for the 2003–2006 Filing Seasons20

     CAS Toll-Free                                    2003             2004            2005             2006

     Primary Abandons (millions)                       5.7              7.1             5.5              6.2
     Total Attempts (millions)                         44.1            51.7             43.1            43.7

     Percentage of Primary Abandons
                                                     12.9%            13.7%           12.8%            14.2%
     to Total Attempts

     Secondary Abandons (millions)21                   2.1              2.3             2.7              2.0
 Source: IRS Weekly Enterprise Snapshot Reports.

Primary abandons can lead to taxpayers having to call back or possibly not receiving assistance
at all because they find the toll-free telephone system too difficult to use. When taxpayers have
these types of difficulties in navigating the automated menu before being placed in the queue to
speak to an assistor, the IRS’ strategic goal of improving taxpayer service is not being met. In
completing customer satisfaction surveys during the 2006 Filing Season, taxpayers that called
the IRS toll-free telephone system identified “finding the appropriate menu choice” and “time to
get through to the IRS” as the top two improvement opportunities.22 Consequently, the continued
identification and correction of causes for high levels of primary abandons is necessary.
Prior to November 22, 2004, the IRS did not have data on the taxpayers’ experiences when
navigating through the automated menu (i.e., the IRS could not determine where taxpayers
disconnected). With implementation of the Internet Service Node, the IRS has detailed data
about where and when taxpayers abandon calls. By analyzing these data, the IRS has
information about taxpayer behavior while using the menu and can begin to deduce why
taxpayers disconnected. Furthermore, changes to the automated menu, which in the past could
take months, can now be completed internally within days.




20
   Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals for previous filing
seasons in Figure 7 may not equal the totals presented in previous TIGTA reports.
21
   The IRS refers to calls that disconnect after reaching the queue as secondary abandons.
22
   IRS Customer Satisfaction Survey, Toll-Free Wage and Investment Division National Report, Covering January
through March 2006.
                                                                                                               Page 10
                                                            Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                                                                Service, but Access Is Lower Than That in Prior Years



          Assistors answered fewer calls per FTE than they did during the 2005 Filing Season
          Assistors answered 5,434 calls per FTE in the 2005 Filing Season compared to 5,054 calls in the
          2006 Filing Season (see Figure 5). In contrast, Assistor Availability, which measures the amount
          of time assistors are idle or available to answer calls, increased 1 percentage point (and by
          19.2 percent overall) compared to the 2005 Filing Season. When Assistor Availability is low,
          assistors’ time is being productively used and the cost of providing toll-free telephone services
          decreases. Figures 8 and 9 show a comparison of calls answered based on FTEs and Assistor
          Availability for the last four filing seasons.23

                         Figure 8: Comparison of Calls Answered                                                                         Figure 9: Comparison of Assistor Calls
                             and Assistor Availability for the                                                                            Answered per Toll-Free FTE for the
                                2003–2006 Filing Seasons                                                                                       2003–2006 Filing Seasons

                                                                                                                                                                5,500                                                    3,200
                                          17,500                                                     12.0%
                                                      11.2%                                                                                                                                                              3,150
 Assistor-Answered Calls (in Thousands)




                                          17,000                                                                                                                5,400
                                                                                                     10.0%                                                               3,137                                           3,100
                                                                  9.0%
                                                                                                                                       Calls Answered per FTE

                                          16,500                                                                                                                5,300                                                    3,050
                                                                                                             Assistor Availability




                                                                                                     8.0%                                                                           3,087
                                          16,000               16,836                                                                                                                                                    3,000
                                                                                                                                                                5,200
                                                                                             6.2%




                                                                                                                                                                                                                                 FTE
                                          15,500                                                     6.0%                                                                            5,454         5,434                 2,950
                                                   15,800                      5.2%
                                                                                                                                                                5,100
                                                                                                                                                                                                                         2,900
                                          15,000
                                                                             15,585                  4.0%                                                                                                        2,894
                                                                                                                                                                5,000                             2,868                  2,850
                                          14,500
                                                                                           14,626                                                                       5,037                                            2,800
                                                                                                     2.0%                                                                                                        5,054
                                                                                                                                                                4,900
                                          14,000                                                                                                                                                                         2,750

                                          13,500                                                     0.0%                                                       4,800                                                    2,700
                                                   2003         2004         2005           2006                                                                        2003         2004         2005           2006
                                                   Assistor-Answered Calls   Assistor Availability                                                                               Calls Answered per FTE    FTE

Source: IRS Enterprise Telephone Data Warehouse.                                                                                     Source: IRS Enterprise Telephone Data Warehouse.


          Taxpayers seeking tax law assistance waited longer to speak with an assistor than those
          seeking tax account assistance
          For the 2006 Filing Season, assistors answered 14.6 million calls; approximately 3.8 million
          were tax law calls and 9.7 million were account-related calls. The remaining 1.1 million calls
          answered were classified in other categories. While the IRS achieved its Level of Service goal,
          the average number of seconds taxpayers waited in the queue before receiving services (Average
          Speed of Answer) increased for taxpayers seeking answers to tax law questions. In addition, the
          Secondary Abandon Rate increased during the 2006 Filing Season. The Secondary Abandon


          23
            The due date for the 2006 Filing Season ended on a weekend; therefore, there was a 2-day extension until
          April 17, 2006. The totals for the 2003–2005 Filing Seasons in Figures 8 and 9 may not equal the totals presented in
          previous TIGTA reports.
                                                                                                                                                                                                            Page 11
                   Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                       Service, but Access Is Lower Than That in Prior Years



Rate is the rate at which taxpayers disconnected while waiting to speak to an assistor for answers
to tax law questions after they had navigated the automated menu. Over one-half of the
taxpayers with tax law questions received assistor service within 30 seconds of waiting (Assistor
Response Level). According to the IRS Oversight Board24 Survey conducted in 2004,
individuals surveyed were willing to wait an average of 8 minutes to speak to an assistor.
During the 2006 Filing Season, 16.4 percent of all calls were transferred. This represents a
7 percent increase over the 2005 Filing Season. Over the last three filing seasons, the Transfer
Rate25 has remained fairly constant for calls from taxpayers seeking tax law assistance.
However, the Transfer Rate for account-related assistance has increased during the last two filing
seasons. Reducing call transfers lowers burden by having taxpayers spend less time on the
telephone. The IRS’ cost to handle a call is also lowered when the call is completed by the first
assistor it is sent to and not transferred. Figure 10 shows a comparison of these measures for the
last four filing seasons.
     Figure 10: Comparison of Tax Law and Account Calls Performance Measures
                         for the 2003–2006 Filing Seasons26

                                              Tax Law Calls                               Account Calls
 CAS Toll-Free
                                   2003       2004       2005       2006       2003      2004       2005       2006
 Average Speed of
 Answer (seconds)                    194        163      188        223         139        203      299        215
 Assistor Response Level            57.4% 64.2% 51.4% 55.5% 56.8% 44.6% 21.3% 38.6%
 Secondary Abandons                 10.2%      7.0%      8.5%       9.4%       6.8%      10.3% 13.9% 10.0%
 Transfer Rate                      30.0% 25.6% 25.5% 25.4% 11.0% 10.2% 10.7% 12.4%
Source: IRS Enterprise Telephone Data Warehouse.

Toll-Free Telephone Scripts Could Be Used to Inform and Educate
Taxpayers
A review of telephone scripts27 used for 6 of 16 CAS Toll-Free telephone product lines showed
the IRS has opportunities to educate and inform taxpayers, either when taxpayers cannot connect
to the toll-free telephone assistance lines or while they are on hold. For example:


24
   The IRS Oversight Board was created to improve the IRS so it may better serve the public and meet the needs of
taxpayers.
25
   The Transfer Rate compares the number of calls transferred by assistors to the number of calls handled.
26
   Due to changes in the methodology the IRS used to capture toll-free telephone data, the totals for previous filing
seasons in Figure 10 may not equal the totals presented in previous TIGTA reports.
                                                                                                             Page 12
                    Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                        Service, but Access Is Lower Than That in Prior Years



       •   When the IRS is experiencing a high call volume, the taxpayer is calling outside the
           toll-free telephone operating hours, or the IRS is having technical difficulties, the scripts
           do, where appropriate, refer taxpayers to available channels through which they could
           receive assistance or information, such as the IRS public web site IRS.gov.
       •   When callers are waiting to speak with assistors, they hear music when on hold. While
           they do hear an “appreciation delay” message informing them their calls will be answered
           in the order in which they were received, they do not hear any messages informing or
           educating them on the IRS, tax laws, or procedures. Also, they are not referred to other
           channels through which they might obtain self-help assistance.
Additionally, while taxpayers are on hold, the IRS does not provide an expected wait time or
advise taxpayers what times are best to call the toll-free telephone lines.
There are opportunities within the toll-free telephone scripts for the IRS to educate the taxpayers
or inform them of its self-help services. Taxpayers that call with a tax law question are referred
to assistors trained in specific applications. For those applications, the IRS could provide
taxpayers with information specific to their issues. For example, taxpayers calling about:
       •   The Earned Income Tax Credit could be directed to the “Earned Income Tax Credit
           Assistant” on IRS.gov or to the appropriate IRS publication(s).
       •   Their tax return refund could be directed to “Where’s My Refund?” on IRS.gov.
       •   How much they should withhold from their paychecks could be directed to the
           “Withholding Calculator” on IRS.gov.
       •   Whether the Alternative Minimum Tax applies to them could be directed to the
           “Alternative Minimum Tax Assistant” on IRS.gov.
When taxpayers call about account issues for which the IRS currently provides little self-help
assistance, the IRS could provide them with other information about the IRS and its services,
including information on new tax laws or upcoming filing deadlines or dates.
We discussed the scripts for the six CAS Toll-Free telephone product lines with IRS
management. They stated the only toll-free telephone product line that could benefit from
additional script analysis is the 1-800-829-1040 telephone line. Some CAS Toll-Free telephone
product lines are response lines for taxpayers to call when responding to notices or other IRS
communications. In addition, management explained that some taxpayers have attempted to use
telephone automation to resolve their issues and were subsequently routed to the 1040 line.
However, some general information may be beneficial to all taxpayers, even if it is unrelated to
why they are calling the IRS. For example, taxpayers could be informed that the deadline to file
their returns this year was April 17, 2006, because April 15 fell on a Saturday. The General

27
     Scripts are used during menu selection and with recorded messages.
                                                                                                 Page 13
                  Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                      Service, but Access Is Lower Than That in Prior Years



Services Administration and Citizen Service Levels Interagency Committee28 issued a report in
October 2005 with recommendations for service levels and best practices that are intended to
serve as the basis for developing template “service level standards” for agency operations and
performance-based Federal Government contracts.29 The Committee considered it a standard
that all agencies should provide to callers who call after contact center operating hours recorded
information that includes the contact center’s hours of operation and a message encouraging
callers to use any 24-hour/7 day-a-week option available for self-help in the interim, such as a
web site.
In its report, the Committee also encouraged agencies to offer solutions to frequently asked
questions (first preference) or music to callers on hold, to expand customer self-help
opportunities and confirm for customers that there is a continuing connection, respectively.
Further, callers that will be waiting for more than 30 seconds to speak to a customer service
representative should be informed of the expected duration of their wait. The Committee
believes these actions have a demonstrated impact on citizen satisfaction.
In addition, during a recent survey of IRS employees conducted for the Taxpayer Assistance
Blueprint,30 employees stated that taxpayers expect the IRS to inform them of the different
communication channels available and which services can be accessed through each channel.
Taxpayers are often unaware of other, possibly more convenient, channels they could have used
to resolve their issues. Per the 2006 Taxpayer Assistance Blueprint Phase I April 24, 2006,
report, one of the strategic improvement themes for improving taxpayer service is to improve
and expand education and awareness activities.




28
   The Committee is comprised of 58 contact service representatives from 33 Executive branch agencies and the
Smithsonian Institution, a trust establishment of the United States. The Committee’s mission is to develop and
deploy Federal Government-wide guidelines to ensure citizens receive accurate, timely, and consistent service from
the Federal Government.
29
   Citizen Service Levels Interagency Committee (CSLIC) Report Proposed Performance Measures, Practices and
Approaches for Government-wide Citizen Contact Activities.
30
   The Taxpayer Assistance Blueprint is an IRS study to develop a 5-year plan to improve taxpayer services.
                                                                                                         Page 14
               Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                   Service, but Access Is Lower Than That in Prior Years



Recommendation
Recommendation: The Commissioner, Wage and Investment Division, should review all
toll-free telephone English and Spanish Call Flow Scripts for opportunities to educate taxpayers
or to inform them of self-help services on IRS.gov.
       Management’s Response: IRS management agreed with this recommendation,
       stating that reviewing English and Spanish telephone call flow scripts may identify
       opportunities to educate taxpayers or inform them of self-help services. The IRS
       currently reviews its call flow scripts on a regular basis and agreed that there is value in
       looking for additional instances in which such announcements might be appropriate. The
       IRS will also look closely at the costs of adding and maintaining such messages to
       determine the feasibility of doing so.




                                                                                           Page 15
                     Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                         Service, but Access Is Lower Than That in Prior Years



                                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the customer service toll-free telephone
access during the 2006 Filing Season.1 To accomplish this objective, we:
I.         Evaluated the IRS’ preparation of the toll-free telephone system for the 2006 Filing
           Season.
           A. Analyzed the IRS’ planning documents for references to toll-free telephone access.
           B. Identified any new tax law legislation passed during Calendar Year 2005.
           C. Reviewed the U.S. Individual Income Tax Return (Form 1040) instruction booklet
              and Your Federal Income Tax for Individuals (Publication 17) to determine the
              accuracy of published toll-free telephone numbers.
           D. Determined the process used to develop the workplans for the 2006 Filing Season.
II.        Determined whether the IRS implemented any new operational processes to improve
           taxpayer access to the toll-free telephone system for the 2006 Filing Season. We
           judgmentally selected a sample of 6 of 16 CAS Toll-Free telephone product line scripts to
           review for opportunities to educate and inform taxpayers of self-help services. We used
           this sampling methodology because we did not plan to project our results.
III.       Attended biweekly executive status meetings and reviewed toll-free telephone reports and
           workplans used to monitor call volumes and respond to any unanticipated changes in call
           patterns or problems taxpayers experienced accessing the toll-free telephone system.
IV.        Determined whether the toll-free telephone program achieved its 2006 Filing Season
           goals by reviewing the performance measures and indicators. This included comparing
           the 2006 Filing Season performance to that of prior filing seasons.
V.         Followed up on the IRS’ planned corrective actions in response to recommendations
           made in prior Treasury Inspector General for Tax Administration filing season reports.
VI.        Determined whether the IRS decreased taxpayer services from the levels provided in
           Fiscal Year 2005.




1
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 16
              Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                  Service, but Access Is Lower Than That in Prior Years



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank W. Jones, Audit Manager
Jack Forbus, Lead Auditor
Ken Carlson, Senior Auditor
Jerome Antoine, Auditor
Robert Baker, Auditor
Patricia Jackson, Auditor
Geraldine Vaughn, Auditor




                                                                                   Page 17
              Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                  Service, but Access Is Lower Than That in Prior Years



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 18
                    Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                        Service, but Access Is Lower Than That in Prior Years



                                                                                                 Appendix IV

                 Customer Account Services
       Toll-Free Telephone Services Individual Product
         Lines for the 2005 and 2006 Filing Seasons                                                      1




                                                Average
                              Assistor          Speed of                                                   Level of
                             Answered           Answer             Primary             Secondary           Service
Product Lines                  Calls           (Seconds)          Abandons             Abandons          (Percentage)
                          2005       2006     2005    2006     2005       2006       2005      2006      2005    2006

Individual Income
Tax Services             7.3 M*      6.6 M     242     209     2.0 M     2.5 M      1.2 M     868,563    83.0    81.9
Business and
Specialty Tax
Services                  2.0 M      1.7 M     196     190    458,389   336,724    323,484    235,131    84.6    83.9

Refund Hotline           778,981     1.1 M     344     249     1.6 M     2.1 M     191,849    177,758    77.1    80.3
Business Master
File2 Customer
Response                 676,338    617,461    221     180    55,101    100,163    109,017     52,624    85.4    91.2

Small Business/
Self-Employed
Individual Master
File3 Customer
Response                 816,849    811,387    257     206    182,644   184,554    121,651    102,654    84.6    84.2
Wage and
Investment
Individual Master
File Customer
Response                  1.5 M      1.5 M     290     219    405,877   400,060    291,848    220,477    80.3    81.6
Refund Call Back          1.8 M      1.6 M     378     279    326,414   305,672    391,885    232,756    76.0    75.9
Special Services         22,112     65,853     138     169      455      14,383     1,515      9,352     91.7    85.7
Telecommunications/
Teletype                   873        641      202     187    243,936   211,197      470        347      31.8    27.9

 1
   The filing season is the period from January through mid-April when most individual income tax returns are filed.
 2
   The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
 businesses. These include employment taxes, income taxes on businesses, and excise taxes.
 3
   The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                             Page 19
                     Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                         Service, but Access Is Lower Than That in Prior Years



                                                   Average
                                Assistor           Speed of                                                  Level of
                               Answered            Answer            Primary             Secondary           Service
 Product Lines                   Calls            (Seconds)         Abandons             Abandons          (Percentage)
                            2005       2006      2005     2006    2005      2006       2005       2006     2005     2006

 National Taxpayer
 Advocate                   68,504    109,141    184      133    69,175    46,952     14,573     20,530     79.8    81.9
 Criminal
 Investigation             178,410       0       274       0     55,058       0       30,889        0       63.1     0

 Practitioner Priority
 Service                   298,408    317,709    101      136    28,894    38,752     19,208     20,936     93.1    92.6
 Taxpayer Assistance
 Center4 – Customer
 Account Services           6,140      9,429      29      122      18         12        323       2,018     93.8    78.7
 Volunteer Income
 Tax Assistance5            15,263    15,564     145      137     553        683       1,822      1,849     87.6    88.6
 International              56,088    56,295     176      267    23,468    26,347      4,128      7,785     91.0    86.5
 International
 Employer
 Identification
 Number                     13,250    13,875     189      191    6,709      5,391      1,393      1,283     89.5    91.1

 Totals6                   15.6 M     14.6 M      –        –     5.5 M      6.2 M      2.7 M      2.0 M      –       –
                                                      7
Source: IRS Enterprise Telephone Data Warehouse.

   *M = Million(s)




   4
     Taxpayer Assistance Centers provide taxpayers face-to-face assistance with interpreting tax laws and regulations,
   preparing certain individual tax returns, resolving inquiries on taxpayer accounts, accepting payments, and providing
   various other services designed to minimize the burden on taxpayers in satisfying their tax obligations.
   5
     The Volunteer Income Tax Assistance Program provides free tax return preparation assistance and electronic
   filing to underserved segments of individual taxpayers, including low-income, elderly, disabled, and
   limited-English-proficient taxpayers.
   6
     The individual product line totals will not sum to totals because of rounding.
   7
     The Enterprise Telephone Data Warehouse is the official source for all data related to toll-free telephone measures
   and indicators.
                                                                                                              Page 20
                Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                    Service, but Access Is Lower Than That in Prior Years



                                                                                    Appendix V


                            Joint Operations Center

The Joint Operations Center serves as the central control organization for all of the IRS’ toll-free
telephone call routing. It uses intelligent call management software to control and route calls to
call centers and assistors who have the skills and are available to answer the calls. In addition, it
monitors the call centers for abnormally high queue (wait) times and/or the number of assistors
that are idle or available to answer calls. When this occurs, actions are taken to modify routing
scripts and balance the workload and associated staffing.
The Joint Operations Center has the ability to trace one call from the time it is received to the
time the call is terminated but does not do so because of the large volume of calls the IRS
receives. The IRS does, however, monitor key segments in the life of a call; for example, from
the time the call was answered by a screener to when it was transferred to an assistor, or from the
time the call was answered by an assistor to the time the taxpayer was transferred or the call
ended. The IRS believes this provides indications of the type(s) of service the average taxpayer
receives.
Taxpayers that call the IRS can receive automated services or choose to speak to a live customer
service representative (assistor). For taxpayers using a touchtone telephone, the automated
services Telephone Routing Interactive System uses recorded information and interactive
applications to provide automated refund status information, permit taxpayers to obtain a payoff
amount for an outstanding balance due, or enable taxpayers to set up an installment agreement to
settle a delinquent tax debt. For example, when calling 1-800-829-1040 with a tax law or
account-related question, the taxpayer is provided, in English or Spanish, four touchtone main
automated menu options with secondary options:
   1. Preparing or filing individual income tax returns. This option provides the taxpayer with
      a second automated menu from which to choose the following options: (a) ordering tax
      forms or publications, (b) finding addresses to mail tax returns or payments to the IRS, or
      (c) getting help with other tax questions.
   2. Requesting information on a tax refund or personal tax account. This option provides the
      taxpayer with a second automated menu from which to choose the following options:
      (a) questions concerning a refund or (b) questions concerning a personal account.
   3. Using the business and specialty tax line or obtaining the address for the IRS Internet
      web site.
   4. Repeating the above options.

                                                                                             Page 21
                  Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
                      Service, but Access Is Lower Than That in Prior Years



If the taxpayer does not select an option or is calling from a rotary telephone and is unable to
select a touchtone option, the same script is repeated providing voice response options. If the
taxpayer selects an invalid option, he or she is transferred to an IRS employee (screener), who
screens and transfers the call to the appropriate assistor to answer the taxpayer’s question.
Assistors are trained and certified on specific “applications”1 for each current filing season.2




1
  The CAS Toll-Free telephone assistance lines are further subdivided into categories called applications. Each
application is staffed with a group of assistors that have received specialized training to assist taxpayers with
specific tax issues.
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                          Page 22
   Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
       Service, but Access Is Lower Than That in Prior Years



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 23
Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
    Service, but Access Is Lower Than That in Prior Years




                                                        Page 24
Appropriate Actions Were Taken to Maintain Taxpayers’ Level of
    Service, but Access Is Lower Than That in Prior Years




                                                        Page 25
